SIGAR                           Special Inspector General for
                                 Afghanistan Reconstruction




                                         SIGAR 14-76 Financial Audit




      USAID’s Afghanistan Rule of Law Stabilization
      Program–Formal Component: Audit of Costs
      Incurred by Tetra Tech DPK




                                                        JULY

                                                    2014
SIGAR 14-76-FA/RLS–Formal
                                                    July 2014
                                                    USAID's Afghanistan Rule of Law Stabilization Program-Formal

SIGAR
Special Inspector General for
                                                    Component: Audit of Costs Incurred by Tetra Tech DPK

                                                    SIGAR 14-76-FA

                                                    WHAT THE AU DIT FOUND
Afghanistan Reconstruction
                                                    Crowe Horwat h LLP (Crowe Horwath) ident ified t wo internal control
WHAT THE AUDIT REVIEWED                             deficiencies and two instances of noncompliance in its audit of incurred
                                                    costs by Tetra Tech DPK (Tt DPK) involving t he Rule of Law Stabilization
On May 19. 2010. the U.S. Agency for
                                                    Program -Formal Component (RLS-Formal). As a result of these deficiencies
 International Development {USAID) issued
                                                    and instances of noncompliance-which were combined into t wo findings-
task order 09 of contract number DFD-1-00-
                                                    Crowe Horwat h questioned $39,327 in ineligible costs related to a
04-00173-00 to Tetra Tech DPK {Tt DPK) to
                                                    subcontractor's use of outdated indirect cost rates. Ineligible costs are costs
 implement the Rule of Law Stabilization
                                                    questioned because t hey are prohibited by t he cont ract. applicable laws. or
 Program -Formal Component {RLS-Formal).
                                                    regulations.
 RLS-Formal sought to develop the capacity
of the formal j ustice sector- principally the                Category          Questioned Costs Total     Ineligible   Unsupported
j udiciary and law schools-and to raise
                                                      Other Direct Costs                       $39,327      $39,327             $0
 public legal awareness and encourage the
                                                      Total                                    $39,327      $39,327             $0
citizens of Afghanistan to resolve their
disputes by accessing and asserting their           Tt DPK failed to ensure that its subcont ractor. Tetra Tech ARD. invoiced the
 rights through the Afghan government's             U.S. Agency for Internationa l Development (USAID) using correct cost rates.
j ustice system.                                    The rates for general and administrat ive indirect costs were revised over t he
                                                    performance period for the RLS-Formal. In addition. Tt DPK did not Obtain
SIGAR's financial audit. performed by Crowe
                                                    written certifications f rom 17 of 21 vendors disclosing that the vendors were
Horwath LLP {Crowe Horwath). reviewed
                                                    not suspended or debarred. Tt DPK also failed to document checks it made
expenditures of $30.619,409 on the RLS-
                                                    on 5 of 21 vendors regarding their suspension and debarment status in t he
Formal task order from May 19. 2010.
                                                    Excluded Parties List System .
through July 15. 2012. Crowe Horwath
(1) identified and reported on significant          Crowe Horwat h requested prior audit reports or other assessments related
deficiencies or material weaknesses in              to the RLS-Formal project f rom Tt DPK and USAID. However. no pertinent
Tt DPK's internal controls related to the task      reports were identified .
order; (2) identified and reported on
                                                    In Crowe Horwath's opinion. Tt DPK's Special Purpose Financial Statement
instances of material noncompliance with
                                                    (SPFS) presented fairly in all material respects. revenues received. costs
the terms of the award and applicable laws
                                                    incurred and the balance for the indicated period in accordance wit h
and regulations. including any potential
                                                    requirements established by SIGAR. The SPFS contains an outstanding f und
f raud or abuse; (3) determined and reported
                                                    balance of $50,449 payable to USAID due to a credit that Tt DPK received
on whether Tt DPK has taken corrective
                                                    from a subcontractor in December 2013. Tt DPK has notified USAID of t he
action on prior findings and
                                                    fund balance.
recommendations: and (4) expressed an
opinion on the fair presentation of Tt DPK's
Specia l Purpose Financial Statement. See
                                                      WHAT SIGAR RECOMMENDS
Crowe Horwath's report for the precise audit
objectives.                                           Based on the results of the audit. SIGAR recommends that the Mission
                                                      Director of USAID/Afghanistan:
In contracting with an independent audit
firm and drawing f rom the results of a              1.    Determine the allowability of and recover, as appropriate, $39,327 in
contracted audit. SIGAR is required by                     ineligible costs identified in the report.
audit ing standards to provide oversight of           2.   Collect from Tt DPK the $50,449 payable to USAID.
the work performed. Accordingly, SIGAR                3.   Advise Tt DPK to address the report's two internal control findings.
reviewed Crowe Horwath's audit results and            4.   Advise Tt DPK to address the report's two noncompliance findings.
found them to be in accordance with
generally accepted government auditing
standards.

       For more information, contact SIGAR Public Affairs at (703) 545-5974orsigar.pentagon.ccr.mbx.public-affairs@mail.mil.
July 7, 2014


Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan
U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by Tetra Tech DPK (Tt DPK) under a U.S. Agency
for International Development (USAID) contract task order to provide support for the Rule of Law Stabilization
Program–Formal Component project. 1 The audit, performed by Crowe Horwath LLP, covered the period May
19, 2010, through July 15, 2012, and expenditures of $30,619,409. Based on the results of the audit, SIGAR
recommends that the Mission Director of USAID/Afghanistan:

      1. Determine the allowability of and recover, as appropriate, $39,327 in ineligible costs identified in the
         report.

      2. Collect from Tt DPK the $50,449 payable to USAID.

      3. Advise Tt DPK to address the report’s two internal control findings.

      4. Advise Tt DPK to address the report’s two noncompliance findings.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction




(F-030)




1   USAID contract number DFD-I-00-04-00173-00, Task Order Number 09.
                        Tetra Tech DPK

              Special Purpose Financial Statement

Afghanistan Rule of Law Stabilization Program: Formal Component

       For the Period May 19, 2010, through July 15, 2012

          (With Independent Auditor’s Report Thereon)
SIGAR                                                                    Tetra Tech DPK




Table of Contents
Transmittal Letter .................................................................................................................................... 1 

Summary .................................................................................................................................................. 2 

INDEPENDENT AUDITOR’S REPORT ON THE SPECIAL PURPOSE FINANCIAL STATEMENT ...... 6 

INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL ..................................................... 15 

INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE.................................................................. 17 

SECTION I: SCHEDULE OF FINDINGS AND QUESTIONED COSTS................................................. 19 

SECTION 2:SUMMARY SCHEDULE OF PRIOR AUDIT, REVIEW, AND ASSESSMENT FINDINGS22 

APPENDIX A: Views of Responsible Officials ................................................................................... 23 




                                                               www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                           Tetra Tech DPK                                                    1




                                                                      Crowe Horwath LLP
                                                                      Independent Member Crowe Horwath International

                                                                      1325 G Street NW, Suite 500
                                                                      Washington D.C. 20005-3136
                                                                      Tel 202.624.5555
                                                                      Fax 202.624.8858
                                                                      www.crowehorwath.com

Transmittal Letter
May 12, 2014

To the President of ARD, Inc., and the Management of Tetra Tech DPK
605 Market Street
San Francisco, California 94105


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We appreciate the opportunity to provide to you our report regarding the procedures that we have
completed during the course of our audit of Tetra Tech DPK’s (“Tt DPK”) contract with the United States
Agency for International Development funding the Afghanistan Rule of Law Stabilization Program:
Formal Component (“RLS-Formal”) project.

Within the pages that follow, we have provided a brief summary of the work performed. Following the
summary, we have incorporated our report on the Special Purpose Financial Statement, report on
internal control, and report on compliance. We do not express an opinion on the summary or any
information preceding our reports.

When preparing our draft report, we considered comments, feedback, and interpretations of Tt DPK and
the Office of the Special Inspector General for Afghanistan Reconstruction provided both in writing and
orally throughout the audit planning and fieldwork phases. Management’s final written responses have
been incorporated into the final report. Modifications were made to the initial findings following our
review of management’s responses and the accompanying supporting documentation, as appropriate.

Thank you for providing us the opportunity to work with you and to conduct the financial audit of Tt
DPK’s RLS-Formal project.


Sincerely,



John C. Weber, CPA, Partner
Crowe Horwath LLP




                                         www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                              Tetra Tech DPK                                       2




Summary
Background
Tetra Tech DPK (“Tt DPK”) entered into a cost reimbursement contract task order with the United States
Agency for International Development (“USAID”) to develop the capacity of Afghanistan’s justice system
to be accessible, reliable, and fair by focusing on the development of the judiciary and law schools and by
raising the public legal awareness of the various means by which they could resolve their disputes
through the Government of the Islamic Republic of Afghanistan’s state justice system. The contract task
order – DFD-I-00-04-00173-00, Order Number 09 – incorporated an initial project budget and ceiling price
of $33,752,979, inclusive of funds allocated for a base year and one option year. Including the option
year, the period of performance spanned May 19, 2010, through July 15, 2012. During that period, Tt
DPK incurred costs totaling $30,619,409.

Throughout the project’s period of performance Tt DPK collaborated with five grantees in Afghanistan,
191 subcontractors, USAID, and various judicial and educational bodies. As reported in Tt DPK’s final
report on the RLS-Formal project, results (unaudited by Crowe) included, but were not limited to:

     Collaborating with the Supreme Court’s judicial education department to improve the judicial training
     program and increase the number of courses emphasizing judicial ethics and practical skills;
     Conducting and/or supporting continuing legal education training for judges ultimately reaching
     greater than 300 judges from all 34 Afghanistan provinces;
     The Court Management Unit’s assisting with the implementation of the Afghanistan Court
     Administration System, proposing improvements to the System, drafting an inspections manual, and
     designing trainings; and
     The Legal Education Section facilitated multiple conferences to assist in the adoption of national
     curricula, including syllabi and course descriptions; and
     Printing and distributing over 2 million copies of legal awareness materials through outreach
     campaigns and producing and broadcasting over 14,000 minutes of Rule of Law radio and TV
     products at prime time listening and viewing hours; and
     Providing support to the Ministry of Justice to create legal awareness publications, including finalizing
     the design of numerous brochures and posters.

Project work concluded in July 2012.

Work Performed
Crowe Horwath LLP (“Crowe”) was engaged by the Office of the Special Inspector General for
Afghanistan Reconstruction (“SIGAR”) to conduct a financial audit of Tt DPK’s RLS-Formal project.

Objectives Defined by SIGAR
The following audit objectives were defined within the Performance Work Statement for Financial Audits
of Costs Incurred by Organizations Contracted by the U.S. Government for Reconstruction Activities in
Afghanistan:

Audit Objective 1 – Special Purpose Financial Statement
Express an opinion on whether the Special Purpose Financial Statement for the award presents fairly, in all
material respects, revenues received, costs incurred, items directly procured by the U.S. Government and
balance for the period audited in conformity with the terms of the award and accounting principles generally
accepted in the United States of America or other comprehensive basis of accounting.



                                           www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                               Tetra Tech DPK                                         3



Audit Objective 2 – Internal Controls
Evaluate and obtain a sufficient understanding of Tt DPK’s internal control related to the award; assess
control risk; and identify and report on significant deficiencies including material internal control weaknesses.

Audit Objective 3 – Compliance

Perform tests to determine whether Tt DPK complied, in all material respects, with the award requirements
and applicable laws and regulations; and identify and report on instances of material noncompliance with
terms of the award and applicable laws and regulations, including potential fraud or abuse that may have
occurred.

Audit Objective 4 – Corrective Action on Prior Findings and Recommendations

Determine and report on whether the audited entity has taken adequate corrective action to address findings
and recommendations from previous engagements that could have a material effect on the special purpose
financial statement.

Scope
The scope of the audit included the period May 19, 2010, through July 15, 2012, for the RLS-Formal
project. The audit was limited to those matters and procedures pertinent to the contract that have a direct
and material effect on the Special Purpose Financial Statement (“SPFS”) and evaluation of the
presentation, content, and underlying records of the SPFS. The audit included reviewing the financial
records that support the SPFS to determine if there were material misstatements and if the SPFS was
presented in the format required by SIGAR. In addition, the following areas were determined to be direct
and material and, as a result, were included within the audit program for detailed evaluation:

     Allowable Costs;
     Allowable Activities;
     Cash Management;
     Equipment and Property Management;
     Period of Availability of Federal Funds;
     Procurement;
     Reporting; and
     Grants Under Contract.

Methodology
To meet the aforementioned objectives, Crowe completed a series of tests and procedures to audit the
SPFS, tested compliance and considered the auditee’s internal controls over compliance and financial
reporting, and determined if adequate corrective action was taken in response to prior audit, assessment,
and findings and review comments, as applicable.
For purposes of meeting Audit Objective 1 pertaining to the SPFS, transactions were selected from the
financial records underlying the SPFS and were tested to determine if the transactions were recorded in
accordance with the basis of accounting identified by the auditee; were incurred within the period covered
by the SPFS and in alignment with specified cutoff dates; were charged to the appropriate budgetary
accounts; and were adequately supported.




                                            www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                             Tetra Tech DPK                                       4



With regard to Audit Objective 2 regarding internal control, Crowe requested and the auditee provided
copies of policies and procedures and verbally communicated those procedures that do not exist in
written format to provide Crowe with an understanding of the system of internal control established by Tt
DPK. The system of internal control is intended to provide reasonable assurance of achieving reliable
financial and performance reporting and compliance with applicable laws and regulations. Crowe
corroborated internal controls identified by the auditee and conducted testing of select key controls to
understand if they were implemented as designed.

Audit Objective 3 requires that tests be performed to obtain an understanding of the auditee’s compliance
with requirements applicable to the contract. Crowe identified – through review and evaluation of the
contract task order and the primary indefinite quantity contract executed by and between Tt DPK and
USAID, the Federal Acquisition Regulation (“FAR”), and the USAID Acquisition Regulation (“AIDAR”) –
the criteria against which to test the SPFS and supporting financial records and documentation. Using
sampling techniques, Crowe selected expenditures, vouchers submitted to USAID for payment,
procurements, property and equipment dispositions, grants issued under the contract and corresponding
costs incurred, and project reports for audit. Supporting documentation was provided by the auditee and
subsequently evaluated to assess Tt DPK’s compliance. Testing of indirect costs was limited to
determining whether indirect costs were calculated and charged to the U.S. Government in accordance
with the negotiated indirect cost rate agreements (“NICRA”) and associated contract restrictions, and if
adjustments were made, as required and applicable.

To obtain an understanding of the nature of audit reports and other assessments that were completed
and the required corrective action, Crowe inquired of both Tt DPK and USAID regarding prior audits and
reviews. There were no reports issued that required corrective action.

Due to the location and nature of the project work and certain vendors and individuals who supported the
project still residing in Afghanistan, certain audit procedures were performed on-site in Afghanistan, as
deemed necessary.

Summary of Results
Upon completion of Crowe’s procedures, Crowe identified two findings because they met one or more of
the following criteria: (1) significant deficiencies in internal control, (2) material weaknesses in internal
control, (3) noncompliance with rules, laws, regulations, or the terms and conditions of the contract;
and/or (4) questioned costs resulted from identified instances of noncompliance. Other matters that did
not meet the criteria were either reported within a management letter dated May 12, 2014, or were
communicated verbally to Tt DPK.

Crowe also reported on both Tt DPK’s compliance with the applicable laws, rules, regulations, and the
terms and conditions of the contract and the internal controls over compliance. One material weakness in
internal control, one significant deficiency in internal control, and two instances of material noncompliance
were reported. Where internal control and compliance findings pertained to the same matter, they were
consolidated within a single finding. A total of $39,327 in costs was questioned as presented in TABLE A
contained herein.

Crowe also requested copies of prior audits, reviews, and evaluations pertinent to Tetra Tech DPK’s
financial performance under the contract. Per communications with Tt DPK and USAID, there were no
reports issued that required corrective action.

Crowe issued an unmodified opinion on the SPFS.




                                           www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                                Tetra Tech DPK                                         5



This summary is intended to present an overview of the results of procedures completed for the purposes
described herein and is not intended to be a representation of the audit's results in their entirety.

                             TABLE A: Summary of Findings and Questioned Costs
                                                                      Questioned
                                        Matter
                                                                        Costs       fl   •   I   •   I



                       Subcontractor NICRA Adjustments      and
    2014-01                                                               $39,327                        $39,327
                       lntercomRany Invoice Reviews
                       Vendor Certifications and EPLS Searches
    2014-02                                                                    $0                               $0

Total Questioned Costs                                                                                   $39,327

Summary of Management Comments

Management concurred with each audit finding and the corresponding recommendations.

References to Appendices

The auditor's reports are supplemented by one appendix. Appendix A includes the Views of
Responsible Officials, which are management's responses to the findings presented within the report.




A      Crowe Horwath.                         www.crowehorwath.com


©Copyright 2014 Crowe Horwath LLP
                                                                        Crowe Horwath LLP
                                                                        Independent Member Crowe Horwath International




   INDEPENDENT AUDITOR’S REPORT ON THE SPECIAL PURPOSE FINANCIAL STATEMENT


To the President of ARD, Inc., and the Management of Tetra Tech DPK
605 Market Street
San Francisco, California 94105


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


Report on the Special Purpose Financial Statement

We have audited, in accordance with the auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States, the Special Purpose Financial Statement (“the
Statement”) of Tetra Tech DPK (“Tt DPK”), and related notes to the Statement, for the period May 19,
2010, through July 15, 2012, with respect to the Afghanistan Rule of Law Stabilization Program: Formal
Component (“RLS-Formal”) project funded by contract number DFD-I-00-04-00173-00, Order Number 09.


Management’s Responsibility for the Special Purpose Financial Statement

Management is responsible for the preparation and fair presentation of the Statement in accordance with
the requirements specified by the Office of the Special Inspector General for Afghanistan Reconstruction
(“SIGAR”) in Appendix V of Solicitation ID05130083 (“the Contract”). Management is also responsible for
the design, implementation, and maintenance of internal control relevant to the preparation and fair
presentation of a Statement that is free from material misstatement, whether due to fraud or error.


Auditor’s Responsibility

Our responsibility is to express an opinion on the Special Purpose Financial Statement based on our
audit. We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and Government Auditing Standards issued by the Comptroller General of the United
States. Those standards require that we plan and perform the audit to obtain reasonable assurance about
whether the Statement is free of material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in
the Statement. The procedures selected depend on the auditor’s judgment, including the assessment of
the risks of material misstatement of the Statement, whether due to fraud or error. In making those risk
assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the Statement in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s
internal control. Accordingly, we express no such opinion.




                                              (Continued)

                                                                                                                         6.
An audit also includes evaluating the appropriateness of accounting policies used and the
reasonableness of significant accounting estimates made by management, as well as evaluating the
overall presentation of the Statement.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for
our audit opinion.

Opinion

In our opinion, the Statement referred to above presents fairly, in all material respects, revenues received,
costs incurred, and balance for the indicated period in accordance with the requirements established by
the Office of the Special Inspector General for Afghanistan Reconstruction in Appendix V of the Contract
and on the basis of accounting described in Note 1.

Basis of Presentation

We draw attention to Note 1 to the Statement, which describes the basis of presentation. The Statement
was prepared by Tt DPK in accordance with the requirements specified by the Office of the Special
Inspector General for Afghanistan Reconstruction in Appendix V of the Contract and presents those
expenditures as permitted under the terms of contract number DFD-I-00-04-00173-00, Order Number 09,
which is a basis of accounting other than accounting principles generally accepted in the United States of
America, to comply with the financial reporting provisions of the Contract referred to above. Our opinion is
not modified with respect to this matter.

Restriction on Use

This report is intended for the information of Tetra Tech DPK, the United States Agency for International
Development, and the Office of the Special Inspector General for Afghanistan Reconstruction. Financial
information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should be considered
before any information is released to the public.

Report on Other Legal and Regulatory Requirements

In accordance with Government Auditing Standards, we have also issued reports dated May 12, 2014, on
our consideration of Tt DPK’s internal controls over financial reporting and on our tests of its compliance
with certain provisions of laws, regulations, contracts, and other matters. The purpose of those reports is
to describe the scope of our testing of internal control over financial reporting and compliance and the
results of that testing, and not to provide an opinion on internal control over financial reporting or on
compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be considered in assessing the results of our audit.




                                                          Crowe Horwath LLP

May 12, 2014
Washington, D.C.




                                                                                                           7.
                                                               Tetra Tech DPK
                                                       Special Purpose Financial Statement
                                                     DFD-I-00-04-00173-00, Task Order #09
                                               For the Period May 19, 2010, through July 15, 2012

                                                                                                                 Questioned Costs

                                                   Budget                    Actual              Ineligible       Unsupported       Notes
Revenues
USAID - DFD-I-00-04-00173-00,
                                           $           33,752,979 $            30,669,858
Task Order #09                                                                                                                         4

Total Revenue                              $           33,752,979 $            30,669,858



Costs Incurred
Labor                                      $            6,097,821 $             6,019,910                                              5
Other Direct Costs                         $           27,655,158 $            24,599,499 $             39,327                      A, 8, 10




Total Costs Incurred                       $           33,752,979 $            30,619,409 $             39,327

Balance                                    $                       -   $            50,449                                             6



The accompanying notes to the Special Purpose Financial Statement are an integral part of this Statement.




                                                                                                                                               8.
                                           Tetra Tech DPK
                          Notes to the Special Purpose Financial Statement
                          For the Period May 19, 2010, through July 15, 2012


Note 1. Basis of Presentation

The accompanying Special Purpose Financial Statement (the "Statement") includes costs incurred under
Contract Number DFD-I-00-04-00173-00, Task Order #9 for the Afghanistan Rule of Law: Formal
Component for the period May 19, 2010 – July 15, 2012. Because the Statement presents only a selected
portion of the operations of Tetra Tech DPK, it is not intended to and does not present the financial
position, changes in net assets, or cash flows of Tetra Tech DPK. The information in this Statement is
presented in accordance with the requirements specified by the Office of the Special Inspector General
for Afghanistan Reconstruction ("SIGAR") and is specific to the aforementioned Federal contract.
Therefore, some amounts presented in this Statement may differ from amounts presented in, or used in
the preparation of, the basic financial statements.


Note 2. Basis of Accounting

Expenditures reported on the Statement are reported on the accrual basis of accounting. Such
expenditures are recognized following the cost principles contained in Title 48, Part 31 of the Code of
Federal Regulations entitled Contract Cost Principles and Procedures and Tetra Tech DPK’s Cost
Accounting Standards Disclosure Statement wherein certain types of expenditures are not allowable or
are limited as to reimbursement.


Note 3. Foreign Currency Conversion Method

For purposes of preparing the Statement, conversions from local currency to United States dollars were
prepared in accordance with the Tetra Tech DPK Exchange Rate Policy. The Policy requires that the
exchange rate used by the local bank when converting or otherwise transferring funds from the account
held in United States dollars to the local currency be documented within the local financial accounting
system and utilized for purposes of recording transaction amounts.


Note 4. Revenues

Revenues on the Statement represent the amount of funds to which Tetra Tech DPK is entitled to receive
from USAID for allowable, eligible costs incurred under the contract during the period of performance.


Note 5. Costs Incurred by Budget Category

The budget categories presented and associated amounts reflect the budget line items presented within
the final, USAID-approved contract budget within the contract dated May 19, 2010.


Note 6. Balance

The fund balance presented on the Statement represents the difference between revenues earned and
costs incurred such that an amount greater than $0 would reflect that revenues have been earned that
exceed the costs incurred or charged to the contract and an amount less than $0 would indicate that
costs have been incurred, but are pending additional evaluation before a final determination of allowability
and amount of revenue earned may be made. Tetra Tech DPK received a credit from a subcontractor in
December 2013 in relation to this contract. On January 30, 2014, Tetra Tech DPK notified USAID of the
credit due and requested banking information to issue a wire transfer. Tetra Tech DPK has not received a
response to this request. Thus, the balance presented on the Statement reflects the $50,449 payable to
the Government.



                                               (Continued)

                                                                                                          9.
Note 7. Currency

All amounts presented are shown in United States dollars.

Note 8. Subrec ipients

Subrecipients include recipients of grants and subcontracts issued to local or U.S.-based entities.
Subcontracts may be issued as cost plus fixed fee, time & materials, fixed price, blanket purchase
agreements and/or purchase orders issued for major equipment and/or other commercial goods and
services purchases. Subrecipients and their corresponding costs incurred during the period under review
are as follows:

                                    Afghanistan RLS-F Subrecipients

                      Vendor Name                                Agreement #           Amount Paid
ABASI N International Travel Service                               BPA 001                    $29,893
ABASIN International Travel Service                             RLS-0830201 O*                  11, 195
Advanced Media                                                      PO 157                      23,325
Afghan Kamyab Construction Company                                  PO 131                       3,216
Afghan Paiwastoon Med ia Communication                              P0202                       12,000
Afghan Technics Ltd                                                 PO 129                      48,470
Al Emran SilkRoad Group                                             BPA-02                      28,418
Al Emran SilkRoad Group                                             PO 164                       1,368
Asia Trade & Commodities Ltd                                        PO 154                       1,430
Azamat Nayebkhail Ltd (USO)                                         PO 127                      21,805
Baheer CP Co Ltd                                                    P096                        12,222
Baheer CP Co Ltd                                                    PO 112                      35,957
Baheer CP Co Ltd                                                    PO 100                       4 ,353
 Baheer CP Co Ltd ( USO )                                           PO 120                      17,675
 Baheer CP Co Ltd ( USO )                                           P0237                      107,200
 Barnes & Noble                                                 RLS-09132010*                   72,078
Continental Guest House                                            RLS-F1 2                     24,510
Continental Guest House                                            RLS-F21                      38,880
 Digicom                                                            PO 145                       7,862
 Digit Zone Computer Ltd (USO)                                      PO 152                      13,845
 Dizain-Kabul Naw in Ltd                                            PO 169                      15,640
 Equal Access Afghanistan                                        RLS-GMP-005                    99,908
Gandeeray Consulting Services                                         PO 19                     24,743
Gandeeray Consulting Services                                         PO 21                     15,598
Global Famous Group                                                 PO 153                      27,798
Gold Flake Logistics & Supply .Co                                     P092                      23,550




                                              (Continued)

                                                                                                   10.
                           Afghanistan RLS·F Subrecipients (Continued)

                       Vendor Name                          Agreement#        Amo unt Paid
Gold Flake Logistics & Supply.Co                                P093                $24,714
Golden Star Hotel                                           RLS-Formal 04            40,500
Jewel of East Logistic & Construction Comp                     P0212                 15,336
Jewel of East Logistic & Construction Comp                      PO 214               22,160
Keel Logistics Developmental Services Co.                       P027                 41,989
khrasan Azizi Construction Company                              PO 140               23,604
Khurshid Aria Co. LTD                                          P0228                 24,780
Marriott Hotel                                             AF 50.24 SPA 05           21,498
MetaMetrics, Inc.                                           RLS-0519201O*           162,944
Milky Way Production LTD                                       P0205                 16,602
Milky Way Production LTD                                       P0227                 12,371
Mohammad Dawood                                                P0035                  6,11 7
NAI- Supporting Open Media in Afghanistan                     G-RLS-002              82,600
NAI- Supporting Open Media in Afghanistan                   RLS-GMP-007              57,827
Nasrat Mohib Safi Ltd                                           PO 141               31,246
Nasrat Mohib Safi Ltd                                           PO 184               10,070
National Center for State Court                            RLS Formal H0-10         11 6,424
Nazary Hotel                                                RLS-Formal 13            49,649
Nazary Hotel (USO)                                          RLS-Formal 23            29,236
North America(USD)                                              PO 137               10,610
Omar Zia Logistics Company                                     P0229                 13,514
Pace Group                                                      PO 148                7,842
Pace Group                                                      PO 185               19,221
Pace Group                                                     P0252                 22,450
Rasool Sofizada Printing Press                                 P0036                 18,889
Saboor Printing Press                                          P0237                152,775
Sadat Printing Press                                            PO 155               10,843
Saeed Publication                                               PO 161                8,125
Safi Landmark Hotel & Suites                                RLS-Formal 03           121,044
Safi Landmark Hotel & Suites                                RLS-Formal 14            11 ,500




                                             (Continued)

                                                                                        11.
                              Afghanistan RLS-F Subrecipients(Continued)

                        Vendo r Nam e                                  Agreement #            Amount Paid
 Safi Landmark Hotel & Suites                                             BPA-005                      $4,685
 Safi Landmark Hotel & Suites (AFA)                                   RLS-Formal 10                    14 ,724
 Safi Landmark Hotel & Suites (AFA)                                   RLS-Formal 11                    12,646
 Safi Landmark Hotel & Suites (AFA)                                   RLS-Formal 17                      2,205
 Sareh Graphics                                                           P0-200                       37,300
 Sareh Graphics                                                           P0-193                       68,500
 Sareh Graphics(AFA)                                                      PO 177                       12,771
 Sarwar Sadat Printing Press                                              PO 171                       18,135
 Sayara Media Communications                                              RLS-02                    1,744 ,454
 Shamshad Printing Press                                                  P0026                        71,046
 SKY Travel & Tours                                                       BPA-003                     103,934
 Smooth Group IT Server CO                                                PO 191                       16,000
 Super Tech ICT Services & Solutions                                      PO 156                       18,613
 Super Tech ICT Services & Solutions                                      PO 189                       33,086
 Super Tech ICT Services & Solutions                                      P0239                        19,620
 Super Tech ICT Services & Solutions                                      P024 5                       44,130
 Tetra Tech ARD                                                       RLS-Formal 01                12,450,761
 University of the Pacific, McGeorge School of Law                  RLS Formal H0-06                  184,825
 WADAN- Welfare Association of the Development of                       G-RLS-003                      90,000
 Afghanistan
 WADAN- Welfare Association of the Development of                       G-RLS-004                      35,144
 Afghanistan
•Agreement number was not incorporated into the subaward; number provided reflects the date of signature of the
subaward.



Note 9. Utilization of grants and subcontracts

Based upon the technical requirements of the project as presented within the agreed-upon Statement of
Work, Tetra Tech DPK conducts assessments of both market conditions and potential implementers to
determine w hether grants or subcontracts should be used in accomplishing the goals and objectives of
the project. The use of a grant (assistance) versus a contract (acquisition) or any instrument issued
through the standard vendor procurement process depends on the purpose of the instrument used.
Acquisition is followed w hen the principle purpose of the instrument is the acquisition, by purchase, lease,
or barter of property or services for the direct benefit or use of the project. Grants are used when the
principle purpose of the relationship is the transfer of money, property, services, or anything of value to
the recipient (grantee) in its accomplishment of a public purpose of support or stimulation.




                                                 (Continued)

                                                                                                           12.
Note 10. Negotiated Indirect Cost Rate Agreement (NICRA)

Pursuant to the terms of the indefinite quantity contract, Tetra Tech DPK invoiced the Government using
the provisional indirect cost and fringe benefit rates included in the negotiated indirect cost rate
agreement dated July 24, 2006. Upon revision of the provisional rates contained therein, establishment
of final rates, or execution of an agreement between the Government and DPK to consider the rates as
final for purposes of closing the contract, an adjustment will be made to the amounts charged to the
Government. To date, the rates established within the July 24, 2006, NICRA remain current and a future
adjustment, if required, has not been calculated.

Note 11. Subsequent Events

Management has performed an analysis of the activities and transactions subsequent to the May 19,
2010, through July 15, 2012, period of performance. Management has performed their analysis through
May 12, 2014.




                                                                                                   13.
      Notes to the Questioned Costs Presented on the Special Purpose Financial Statement1


Note A. Subcontractor NICRA Adjustments and Intercompany Invoice Reviews

Finding 2014-01 identified $39,327 in questioned costs that resulted from Tetra Tech ARD, a
subcontractor to Tetra Tech DPK, not processing adjustments to its general and administrative indirect
cost rate upon revision of the provisional rates contained in Tetra Tech ARD’s negotiated indirect cost
rate agreement.




1
  Notes to the Questioned Costs Presented on the Special Purpose Financial Statement were prepared by the auditor
for informational purposes only and as such are not part of the audited Statement.




                                                                                                             14.
                                                                          Crowe Horwath LLP
                                                                          Independent Member Crowe Horwath International




                   INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL


To the President of ARD, Inc., and the Management of Tetra Tech DPK
605 Market Street
San Francisco, California 94105


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We have audited, in accordance with the auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States, the Special Purpose Financial Statement (“the
Statement”) of Tetra Tech DPK, and related notes to the Statement, for the period May 19, 2010, through
July 15, 2012, with respect to the Afghanistan Rule of Law Stabilization Program: Formal Component
(“RLS-Formal”) project funded by contract number DFD-I-00-04-00173-00, Order Number 09. We have
issued our report thereon dated May 12, 2014.

Internal Control over Financial Reporting

Tt DPK’s management is responsible for establishing and maintaining effective internal control. In fulfilling
this responsibility, estimates and judgments by management are required to assess the expected benefits
and related costs of internal control policies and procedures. The objectives of internal control are to
provide management with reasonable, but not absolute, assurance that the assets are safeguarded
against loss from unauthorized use or disposition; transactions are executed in accordance with
management’s authorization and in accordance with the terms of the contract; and transactions are
recorded properly to permit the preparation of the Statement in conformity with the basis of presentation
described in Note 1 to the Statement. Because of inherent limitations in internal control, errors or fraud
may nevertheless occur and not be detected. Also, projection of any evaluation of the structure to future
periods is subject to the risk that procedures may become inadequate because of changes in conditions
or that the effectiveness of the design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the Statement for the period May 19, 2010, through July 15, 2012,
we considered Tt DPK’s internal controls to determine audit procedures that are appropriate in the
circumstances for the purpose of expressing our opinion on the Statement, but not for the purpose of
expressing an opinion on the effectiveness of Tetra Tech DPK’s internal control. Accordingly, we do not
express an opinion on the effectiveness of Tetra Tech DPK’s internal control.

Our consideration of internal control was for the limited purpose described in the preceding paragraph
and was not designed to identify all deficiencies in internal control that might be material weaknesses or
significant deficiencies and, therefore, material weaknesses or significant deficiencies may exist that were
not identified. However, as described in the accompanying Schedule of Findings and Questioned Costs,
we identified certain deficiencies in internal control that we consider to be material weaknesses and
significant deficiencies.




                                                (Continued)

                                                                                                                       15.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a material
misstatement of the Statement will not be prevented, or detected and corrected, on a timely basis. We
consider the deficiency noted in Finding 2014-01 in the accompanying Schedule of Findings and
Questioned Costs to be a material weakness.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiency noted in Finding 2014-02 in the accompanying Schedule of
Findings and Questioned Costs to be a significant deficiency.

We noted certain matters that we reported to Tetra Tech DPK’s management in a separate letter dated
May 12, 2014.

Tetra Tech DPK’s Response to Findings

Tetra Tech DPK’s response was not subject to the auditing procedures applied in the audit of the Special
Purpose Financial Statement and, accordingly, we express no opinion on it.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the results
of that testing, and not to provide an opinion on the effectiveness of the entity’s internal control. This
report is an integral part of an audit performed in accordance with Government Auditing Standards in
considering the entity’s internal control. Accordingly, this communication is not suitable for any other
purpose.

Restriction on Use

This report is intended for the information of Tetra Tech DPK, the United States Agency for International
Development, and the Office of the Special Inspector General for Afghanistan Reconstruction. Financial
information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should be considered
before any information is released to the public.




                                                          Crowe Horwath LLP

May 12, 2014
Washington, D.C.




                                                                                                         16.
                                                                        Crowe Horwath LLP
                                                                        Independent Member Crowe Horwath International




                       INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE


To the President of ARD, Inc., and the Management of Tetra Tech DPK
605 Market Street
San Francisco, California 94105


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We have audited, in accordance with the auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States, the Special Purpose Financial Statement (“the
Statement”) of Tetra Tech DPK and related notes to the Statement, for the period May 19, 2010, through
July 15, 2012, with respect to the Afghanistan Rule of Law Stabilization Program: Formal Component
(“RLS-Formal”) project funded by contract number DFD-I-00-04-00173-00, Order Number 09. We have
issued our report thereon dated May 12, 2014.

Management’s Responsibility for Compliance

Compliance with Federal rules, laws, regulations, and the terms and conditions applicable to the contract
are the responsibility of the management of Tetra Tech DPK.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Statement is free of material misstatement,
we performed tests of compliance with certain provisions of laws, regulations, and contracts,
noncompliance with which could have a direct and material effect on the determination of financial
statement amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and, accordingly, we do not express such an opinion. The results of our tests
disclosed instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards and which are described in Findings 2014-01 and 2014-02 in the
accompanying Schedule of Findings and Questioned Costs.

Tetra Tech DPK’s Response to Findings

Tetra Tech DPK’s response was not subjected to the auditing procedures applied in the audit of the
Special Purpose Financial Statement and, accordingly, we express no opinion on it.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of
that testing, and not to provide an opinion on compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering the entity’s internal control
and compliance. Accordingly, this communication is not suitable for any other purpose.




                                               (Continued)

                                                                                                                     17.
Restriction on Use

This report is intended for the information of Tetra Tech DPK, the United States Agency for International
Development, and the Office of the Special Inspector General for Afghanistan Reconstruction. Financial
information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should be considered
before any information is released to the public.




                                                        Crowe Horwath LLP
May 12, 2014
Washington, D.C.




                                                                                                     18.
SECTION I: SCHEDULE OF FINDINGS AND QUESTIONED COSTS

Finding 2014-01: Subcont ractor NICRA Adjustments and lntercompany Invoice Reviews

Material Weakness and Non-Compliance

Criteria: Pursuant to Section ll(E)(1) of the NICRA, "Indirect costs charged to Federal grants/contracts by
means other than the rate(s) cited in the agreement should be adjusted to the applicable rate(s) cited
herein which should be applied to the appropriate base to identify the proper amount of indirect costs
allocable to the program."

FAR 52.216-7, Allowable Costs and Payment, states:

(e) Billing rates. Until final annual indirect cost rates are established for any period, the Government shall
reimburse the Contractor at billing rates established by the Contracting Officer or by an authorized
representative (the cognizant auditor), subject to adjustment when the final rates are established. These
billing rates-
          (1 ) Shall be the anticipated final rates; and
          (2) May be prospectively or retroactively revised by mutual agreement, at either party's request,
          to prevent substantial overpayment or underpayment.

Condition : Tetra Tech ARD (Tt ARD) served as a subcontractor to Tetra Tech DPK for the duration of the
project. On a monthly basis, Tt ARD invoiced Tt DPK for services rendered under the subcontract,
including indirect costs as calculated using the provisional rates approved within the negotiated indirect
cost rate agreements (NICRAs). The provisional rates used for invoicing were periodically revised and
incorporated into subsequent NICRAs throughout the project's period of performance. Tt ARD did not
conduct a true-up of the costs that were invoiced to ensure alignment with the revised provisional rates
included within the NICRAs.

The following table summarizes the rates used for billing and the revised provisional rates, per the
applicable NICRA:


                                   Initial Material     Amended Material                        Amended




                                       --                      -- -- --
                                   Handling Rate         Handling Rate                          G&A Rate




                                        -                       - - -
In addition, we noted that Tt DPK did not conduct a documented review of each Tt ARD invoice that was
rendered and paid using Federal funds. Of 28 Tt ARD invoices reviewed , evidence of Tt DPK's review
was not available in any instance; however, Tt DPK was able to provide documentation showing that the
voucher submitted to USAID for payment, which includes Tt ARD invoices, was reviewed and approved
by the individual responsible for evaluating Tt ARD's performance (i.e., the project manager). Per
discussion with Tt DPK, inter-company invoices are required by internal policy to be paid immediately and
errors or discrepancies identified within the invoices are required to be resolved and addressed in the
subsequent period's billing. Utilization of the outdated indirect cost rates was not detected during the
invoice reviews.

Questioned costs: $39,327




                                                 (Continued)

                                                                                                          19.
Effect: Tetra Tech DPK obtained an overpayment of funds from the Government. Further, in the absence
of detailed, documented reviews, Tt DPK may be mischarged by a separate Tetra Tech entity and fail to
detect and correct the error timely, thus increasing the likelihood of questioned costs and noncompliance
with applicable rules and regulations pertaining to invoicing the Government.

Cause: Tetra Tech ARD incorrectly determined that a true-up of charges based on the NICRA was not
required until a final rate was agreed-upon for each applicable fiscal year rather than revised provisional
rates. Therefore, the adjustments were not calculated and reflected in project vouchers.

With regard to reviews of inter-company invoices, Tt DPK followed its internal review and payment
procedures, which did not require documented reviews of inter-company invoices. Tt DPK did not detect
ARD’s failure to true-up the NICRA-related charges during its standard inter-company invoice review
process.

Recommendation: We recommend that Tetra Tech DPK, as the prime contractor, obtain the funds that
were overpaid to ARD and remit the $39,327 overpayment amount to the Government. We further
recommend that, as a component of its intercompany invoice review process, Tt DPK incorporate a
documented review of intercompany invoices and specifically incorporate a requirement that the G&A and
material handling rates used in billing be included within the scope of the review.




                                               (Continued)

                                                                                                       20.
Finding 2014-02: Vendor Certifications and Excluded Parties List System (EPLS) Searches

Significant Deficiency and Non-Compliance

Criteria: Pursuant to FAR 52.209-6(b), “The Contractor shall require each proposed first-tier
subcontractor, whose subcontract will exceed $30,000, to disclose to the Contractor, in writing, whether
as of the time of award of the subcontract, the subcontractor or its principals, is or is not debarred,
suspended, or proposed for debarment by the Federal Government.

Tetra Tech DPK’s “Local Procurement Handbook”, Section 7.4.5, states: The potential vendor or
subcontractor should be checked to ensure that they are not on the list of sanctioned individuals or
companies. A check should be done to ensure that the vendor and/or subcontractor do not appear on the
following list maintained by the Department of Treasury.           The list can be accessed at
https://www.epls.gov/epls/search.do .

Condition: Of 21 procurements selected for testing, seventeen exceeded the $30,000 threshold requiring
certification as to suspension and debarment status. Tetra Tech DPK did not obtain certifications from
any of the seventeen vendors. During our independent search of the System for Award Management,
which the Government used to replace the EPLS subsequent to the award period, we did not identify any
suspended or debarred vendors.

As a matter of practice, Tt DPK conducted searches of the Excluded Parties List System prior to
executing contracts with vendors. The searches were intended to identify any suspended or debarred
parties. During our review of documentation from the procurement files, we noted that EPLS searches
were not completed for five of the 21 vendors in the sample.

Questioned costs: None

Effect: The risk of Tt DPK awarding funds to vendors which are suspended, debarred, or proposed for
debarment was enhanced as a result of certifications not having been obtained and EPLS searches not
having been conducted in each instance.

Cause: Tetra Tech DPK was unaware of the requirement that certifications be obtained from vendors with
contracts exceeding $30,000, and had utilized a prior version of the regulation to support its procedure.
In other instances, the contractor elected not to conduct searches of U.S.-based organizations.

Recommendation: We recommend that Tetra Tech DPK revise its procurement procedures to incorporate
a requirement that certifications be received from vendors with estimated contract values equal to or
greater than $30,000.




                                                                                                     21.
SECTION 2: SUMMARY SCHEDULE OF PRIOR AUDIT, REVIEW, AND ASSESSMENT FINDINGS

Per discussion with Tetra Tech DPK and USAID, one compliance review had been conducted over RLS-
Formal project activities. The report had been issued and management’s responses provided to USAID.
However, USAID had not issued a final response regarding required corrective actions or final
dispositions in response to the findings. In the absence of final instruction from USAID, there were no
corrective actions required for follow-up by Crowe Horwath.




                                                                                                   22.
APPENDIX A: Views of Responsible Officials




                                             23.
To:             Eric Russell, Audit Manager, Crowe Horwath

From:           Rebecca Silva, Tt DPK Contracts Management Director
                Tammy Lovlie, Tt DPK Finance and Administration Director

CC:             Robert W Page Jr, Tt DPK Director
                Robert Underwood, Tt DPK Technical Director

Date:           May 12, 2014

Reference:      Management Responses to Audit Findings - Financial audit of the Afghanistan Rule
                of Law Stabilization Program: Formal Component (“RLS-Formal”)

Contract #:     DFD-I-00-04-00173-00, Order Number 09

Pursuant to the referenced audit report and your email of April 29, 2014, Tt DPK provides the below
management responses.

Finding 2014-01: Subcontractor NICRA Adjustments and Intercompany Invoice Reviews
Material Weakness and Non-Compliance

Criteria: Pursuant to Section II(E)(1) of the NICRA, "Indirect costs charged to Federal
grants/contracts by means other than the rate(s) cited in the agreement should be adjusted to the
applicable rate(s) cited herein which should be applied to the appropriate base to identify the proper
amount of indirect costs allocable to the program."
FAR 52.216-7, Allowable Costs and Payment, states:

(e) Billing rates. Until final annual indirect cost rates are established for any period, the Government
shall reimburse the Contractor at billing rates established by the Contracting Officer or by an
authorized representative (the cognizant auditor), subject to adjustment when the final rates are
established. These billing rates—
         (1) Shall be the anticipated final rates; and
         (2) May be prospectively or retroactively revised by mutual agreement, at either party’s
         request, to prevent substantial overpayment or underpayment.

Condition: Tetra Tech ARD (Tt ARD) served as a subcontractor to Tetra Tech DPK for the duration
of the project. On a monthly basis, Tt ARD invoiced Tt DPK for services rendered under the
subcontract, including indirect costs as calculated using the provisional rates approved within the
negotiated indirect cost rate agreements (NICRAs). The provisional rates used for invoicing were
periodically revised and incorporated into subsequent NICRAs throughout the project's period of
performance. Tt ARD did not conduct a true-up of the costs that were invoiced to ensure alignment
with the revised provisional rates included within the NICRAs.



                                               Tetra Tech DPK
                         605 Market Street, Suite 800, San Francisco, CA 94105 USA
         Tel +1.415.495.7772 Fax +1.415.495.6017 www.tetratechdpk.com www.tetratech.com	
 ['11::   l
          TETRA TECH DPK




The following table summarizes the rates used for billing and the revised provisional rates, per the
applicable NICRA:



      Project Period            Initial Material    Amended :.\laterial                   Amended
                                Handling Rate



                                    --                        • -
                                                          - --,-
                                                     Handling Rate                        G&ARate




                                     -                    -- -- --
In addition, we noted that Tt DPK did not conduct a documented review of each Tt ARD invoice that
was rendered and paid using Federal funds. Of28 Tt ARD invoices reviewed, evidence ofTt DPK's
review was not available in any instance; however, Tt DPK was able to provide documentation
showing that the voucher submitted to USAID for payment, which includes Tt ARD invoices, was
reviewed and approved by the individual responsible for evaluating Tt ARD's perfo1mance (i.e., the
project manager). Per discussion with Tt DPK, inter-company invoices are required by internal
policy to be paid immediately and enors or discrepancies identified within the invoices are required
to be resolved and addressed in the subsequent period's billing. Utilization of the outdated indirect
cost rates was not detected during the invoice reviews.

Questioned costs: $39,327

Effect: Tetra Tech DPK obtained an overpayment of funds from the Government. Fmther, in the
absence of detailed, documented reviews, Tt DPK may be mischarged by a separate Tetra Tech entity
and fail to detect and conect the enor timely, thus increasing the likelihood of questioned costs and
noncompliance with applicable mles and regulations pertaining to invoicing the Government.

Cause: Tetra Tech ARD inconectly dete1mined that a tme-up of charges based on the NICRA was
not required until a final rate was agreed-upon for each applicable fiscal year rather than revised
provisional rates. Therefore, the adjustments were not calculated and reflected in project vouchers.

With regard to reviews of inter-company invoices, Tt DPK followed its internal review and payment
procedures, which did not require documented reviews of inter-company invoices. Tt DPK did not
detect ARD's failure to tme-up the NICRA-related charges during its standard inter-company invoice
review process.



                                                   2
 ['11::   l   TETRA TECH DPK




Recommendation: We recommend that Tetra Tech DPK, as the prime contractor, obtain the funds
that were overpaid to ARD and remit the $39,327 overpayment amount to the Government. We
ftu1her recommend that, as a component of its intercompany invoice review process, Tt DPK
incorporate a documented review of intercompany invoices and specifically incorporate a
requirement that the G&A and material handling rates used in billing be included within the scope of
the review.

Management Response: Management agrees with the recommendation. USAID and Tt DPK agreed
dming the audit exit conference that USAID will issue a Bill of Collection upon receiving the Final
Audit repo11 from SIGAR for the subject audit. Tt DPK will reimburse the $39,327 in funds upon
receipt.

We will adjust our intercompany invoice review process to incorporate documentation of the project
manager's review of the Tt ARD invoice. Review scope will include review of G&A and material
handling rates.

Target Date for Implementation: June 30, 2014

Finding 2014-02: Vendor Certifications and Excluded Parties List System (EPLS) Search es

Significant Deficiency and Non-Compliance

Criteria: Pmsuant to FAR 52.209-6(b), "The Contractor shall require each proposed first-tier
subcontractor, whose subcontract will exceed $30,000, to disclose to the Contractor, in writing,
whether as of the time of award of the subcontract, the subcontractor or its p1incipals, is or is not
debaned, suspended, or proposed for deba1ment by the Federal Government.

Tetra Tech DPK's "Local Procurement Handbook", Section 7.4.5, states: The potential vendor or
subcontractor should be checked to ensure that they are not on the list of sanctioned individuals or
companies. A check should be done to ensure that the vendor and/or subcontractor do not appear on
the following list maintained by the Depa11ment of Treasmy. The list can be accessed at
https://www.epls.gov/epls/search.do .

Condition: Of21 procurements selected for testing, seventeen exceeded the $30,000 threshold
requiring ce11ification as to suspension and debaiment status. Tetra Tech DPK did not obtain
ce11ifications from any of the seventeen vendors. During our independent seai·ch of the System for
Awai·d Management, which the Government used to replace the EPLS subsequent to the awai·d
period, we did not identify any suspended or debaned vendors.

As a matter of practice, Tt DPK conducted seai·ches of the Excluded Pai1ies List System prior to
executing contracts with vendors. The seai·ches were intended to identify any suspended or debaiTed
pai1ies. During our review of documentation from the procurement files, we noted that EPLS
seai·ches were not completed for six of the 21 vendors in the sainple.

                                                    3
 ['11::   l   TETRA TECH DPK




Questioned costs: None

Effect: The Iisk of Tt DPK awarding funds to vendors which are suspended, debaned, or proposed
for debannent was enhanced as a result of ce1tifications not having been obtained and EPLS searches
not having been conducted in each instance.

Cause: Tetra Tech DPK was unaware of the requirement that ce1tifications be obtained from vendors
with contracts exceeding $30,000, and had utilized a prior version of the regulation to suppo1t its
procedure. In other instances, the contractor elected not to conduct searches ofU.S.-based
organizations.

Recommendation: We recommend that Tetra Tech DPK revise its procurement procedures to
incorporate a requirement that ce1tifications be received from vendors with estimated contract values
equal to or greater than $3 0,000.

Management Response: Management agrees with the recommendation. As noted above, we had
utilized a prior version of the subject regulation and included language in sub agreements and
conducted EPLS searches as a mechanism to avoid awarding funds to suspended or debaned
vendors.

Below we provide additional details regarding the six cases cited in the audit repo1t for not having
EPLS searches completed by Tt DPK plior to subaward signanire:

                                          US or Host
       Vendor/Subawardee                                                Comment
                                           Country
  Shamshad Printing Press (PO        Host Country          Not obtained prior to signature of
  026)                                                     subaward, subsequent EPLS
                                                           search indicated vendor was not
                                                           suspended or debarred
  Safi Landmark Hotel and Suites     Host Country          Same as above
  (EPLS-Formal 03)

  Barnes and Noble (no reference     US Large Business     Same as above
  number)
  MetaMetrics, Inc. (no reference    US Small              Same as above
  number)                            Disadvantaged and
                                     Veteran Owned
  Tetra Tech ARD (RLS-Formal         US Large Business     Because Tetra Tech DPK is a
  01)                                                      wholly owned legal entity of Tetra
                                                           Tech ARD, it was not determined
                                                           necessary to run the EPLS search.
                                                           We request that this item be
                                                           removed from the number of
                                                           exceptions noted.
  University of the Pacific          US Universitv         EPLS results were located in Tt


                                                     4
 ['11::   l   TETRA TECH DPK




                                        US or Host                   Comment
          Vendor/Subawardee
                                         Countrv
  McGeorge School of Law (RLS                              DPK files and have now been
  Formal H0-06)                                            provided to auditors. We request
                                                           this case be removed from the
                                                           number of exceotions noted.

Based on the above, we request that the number of cases cited as not having EPLS searches be
reduced from six to four.

Target Date for Implementation: July 31, 2014

Should you require any additional inf01mation, please let us know.


Sincerely,




Rebecca Silva
Tetra Tech DPK Contracts Management Director




Tammy Lovlie
Tetra Tech DPK Finance and Administration Director




                                                  5
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs            •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
